Audit Report
DRUG ENFORCEMENT ADMINISTRATION
PROPERTY MANAGEMENT AND INVENTORY CONTROLS
Audit Report 96-10, (3/96)
TABLE OF CONTENTS
AUDIT RESULTS
INTRODUCTION
FINDINGS AND
RECOMMENDATIONS
I. REVIEW OF DEA
PROPERTY MANAGEMENT PRACTICES
A. Internal
Controls
B. The Property
Management Officer
C. Review of
Property Systems
D. DEA Actions
E. Conclusion
F. Recommendation and
Status of Corrective Actions
II. REVIEW OF FIXED
ASSETS
A. Capitalization
Process
B. Capitalization
of Purchased Assets
C.
Capitalization of Non-Purchased Assets
D. Disposal of
Capitalized Assets
E. Interface
Between Accounting and Property Systems
F. DEA Actions
G. Conclusion
H. Recommendations
and Status of Corrective Actions
STATEMENT ON COMPLIANCE
WITH LAWS AND REGULATIONS
SCHEDULE OF DOLLAR RELATED
FINDINGS
APPENDIX I - SCOPE,
METHODOLOGY, AND BACKGROUND INFORMATION
APPENDIX II - DEA OFFICES
AND PROPERTY SYSTEMS REVIEWED
APPENDIX III - ACRONYMS
APPENDIX IV - DEFINITIONS OF
TERMS
APPENDIX V - DEA CONCURRENCE
MEMO
#####